No. 19-47

In the Supreme Court of the Anited States

Jeryme Morgan, Petitioner,
v.
Minh Schott, Tim Veath, and Hudson Maynard, Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
Respondents contains 6,062 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 29, 2019.

 

Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondents
